<html>
<title> - H.R. 672, TO TERMINATE THE ELECTION ASSISTANCE COMMISSION</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
       H.R. 672, TO TERMINATE THE ELECTION ASSISTANCE COMMISSION

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON ELECTIONS

                                 of the

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                 Held in Washington, DC, April 14, 2011

                               __________

      Printed for the use of the Committee on House Administration


                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html



                  U.S. GOVERNMENT PRINTING OFFICE
67-345                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e7809788a7849294938f828b97c984888ac9">[email&#160;protected]</a>  

                   COMMITTEE ON HOUSE ADMINISTRATION

                DANIEL E. LUNGREN, California, Chairman
GREGG HARPER, Mississippi            ROBERT A. BRADY, Pennsylvania,
PHIL GINGREY, M.D., Georgia            Ranking Minority Member
AARON SCHOCK, Illinois               ZOE LOFGREN, California
TODD ROKITA, Indiana                 CHARLES GONZALEZ, Texas
RICHARD NUGENT, Florida

                           Professional Staff

             Philip Kiko, Staff Director & General Counsel
                  Jamie Fleet, Minority Staff Director
                                 ------                                

                       Subcommittee on Elections

                  GREGG HARPER, Mississippi, Chairman
AARON SCHOCK, Illinois               CHARLES GONZALEZ, Texas
RICHARD NUGENT, Florida              ROBERT A. BRADY, Pennsylvania
TODD ROKITA, Indiana


       H.R. 672, TO TERMINATE THE ELECTION ASSISTANCE COMMISSION

                              ----------                              


                        THURSDAY, APRIL 14, 2011

                  House of Representatives,
                         Subcommittee on Elections,
                         Committee on House Administration,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:02 a.m., in 
Room 1310, Longworth House Office Building, Hon. Gregg Harper 
(chairman of the subcommittee) presiding.
    Present: Representatives Harper, Nugent, Rokita and 
Gonzalez.
    Staff Present: Peter Schalestock, Deputy General Counsel; 
Kimani Little, Parliamentarian; Joe Wallace, Legislative Clerk; 
Yael Barash, Assistant Legislative Clerk; Salley Wood, 
Communications Director; Bob Sensenbrenner, Elections Counsel; 
Karin Moore, Elections Counsel; Jamie Fleet, Minority Staff 
Director; Kyle Andersen, Minority Press Secretary; Matt 
Defreitas, Minority Professional Staff; Khalil Abboud, Minority 
Elections Staff; Thomas Hicks, Minority Elections Counsel; and 
Gregg Abbott, Minority Professional Staff.
    Mr. Harper. I now call to order the Committee on House 
Administration Subcommittee on Elections oversight hearing 
regarding H.R. 672, which is legislation terminating the 
Election Assistance Commission. The hearing record will remain 
open for 5 legislative days so that Members may submit any 
material that they wish to be included therein. A quorum is 
present, so we may proceed.
    The Subcommittee on Elections oversees Federal elections 
and considers legislative means to improve and protect the 
integrity of our electoral system. To that end, in the 112th 
Congress this committee has held oversight hearings on military 
and overseas voting, the 2010 elections, and the operations and 
budget request of the EAC. At that hearing we explored multiple 
operational and managerial problems at the EAC and the 
statutory responsibilities that are complete.
    Today I look forward to discussing H.R. 672, which would 
terminate the Commission and transfer its remaining 
responsibilities to a more appropriate agency. HAVA, passed in 
2002, required updated voting equipment and standardized 
election-related procedures across this country. The 
legislation also established the Election Assistance Commission 
to disburse funds and assist States in their obligation to meet 
the requirements of HAVA.
    Today, nearly a decade later, after most States have met 
the major requirements of HAVA, little funding remains to be 
disbursed. And yet with the bloated, management-heavy budget 
and a demonstrated inability to manage its resources wisely, 
the EAC continues to operate providing little, if any, real 
assistance to the States at significant cost to taxpayers.
    The Commission's chronic issues have included an astounding 
doubling in staff, while the Commission's responsibilities did 
not increase; a budget that spends more on internal operational 
costs than actual election assistance; questionable funding 
allocation decisions; and hiring processes that have led to 
multiple discrimination claims. In totality, the Commission has 
simply lived passed its usefulness.
    As another example of the EAC's inability to function 
effectively, following an oversight hearing last month, this 
subcommittee sent written follow-up questions to the EAC with a 
response deadline of April 6th. Today it is April 14, and we 
still have not received responses to some seemingly 
straightforward questions.
    Finally, I note that when HAVA was on the House floor in 
2002, Congressman Hoyer cited a study showing that 4- to 6-
million people could not vote or did not have their votes 
counted in the 2000 elections. In 2008, a successor study said 
the comparable figure was 4- to 5-million, after the EAC had 
existed for 6 years and spent over $3 billion. Now the EAC's 
election programs have shrunk to one-third of its budget, so 
future improvements seems unlikely.
    I believe the States benefited from Federal assistance to 
update voting machines and election procedures, no doubt; but 
the funding for those payments has ended, and the Federal 
Government cannot afford to keep spending money on an agency 
that has not produced measurable improvement.
    I look forward to discussing these issues with our 
witnesses, particularly the minority whip, who, during his time 
on the committee, was instrumental in HAVA's passage. I look 
forward to hearing their thoughts on these troubling practices 
and why in both 2005 and 2010 the National Association of 
Secretaries of State adopted resolutions calling on Congress 
not to reauthorize or fund the EAC, why the very beneficiaries 
of the Commission's work no longer feel it is needed.
    Since introducing H.R. 672, I have heard from many 
elections officials from across the country who have provided 
their suggestions and advice. I appreciate and value their 
input and suggestions, including maintaining the voting system 
testing and certification programs, and maintaining a formal 
role for election officials in the development of the voluntary 
voting system guidelines. Again, I appreciate this input and 
plan to incorporate much of it in an amendment to this bill. 
These are the types of constructive ideas I look forward to 
discussing today.
    At a time of in excess of $1.6 trillion deficits and a 
$14.3 trillion debt, continuing to spend money on the EAC is 
unjustifiable. Simply put, if we can't cut spending by 
eliminating a commission that has so obviously outlived its 
usefulness and that is opposed by many of the elections 
officials that it is supposedly serving, then the system is 
broken.
    Again, I thank each of our witnesses that are going to be 
here today and would like now to recognize my colleague Mr. 
Gonzalez, the ranking member of this subcommittee, for the 
purpose of providing an opening statement.Mr. Gonzalez.
    Mr. Gonzalez. Thank you very much, Mr. Chairman. Now, I 
remember when the Help America Vote Act was written and passed. 
I wasn't on the committee at that time, but I fought hard 
during the drafting to fix some of the problems that I saw were 
inherent in the draft bill. Mr. Hoyer probably remembers our 
discussions way back then. And I did have a strong reservation, 
but not for the reasons that are cited today as justifying 
passage of H.R. 672.
    I want to make some acknowledgments. It is true that the 
Election Assistance Commission, having been created, has had 
its problems. No one denies that, including the Commissioners 
and staff. But it is not the first agency to have problems, and 
it was faced with a tremendous task: tackling the challenges of 
voters in 50 States, the District of Columbia, Puerto Rico, 
Guam, and the U.S. Virgin Islands, and American Samoa, and the 
thousands of different electoral districts within them. Perhaps 
it was in recognition of this challenge that during the 109th 
Congress the Republican-controlled Congress lifted the cap on 
EAC employment so they could staff up to tackle those goals.
    The EAC remains a tiny Federal agency compared to others in 
our Federal Government. The chairman has mentioned the 
disproportionate amount of its budget that EAC spends on 
personnel costs, and this is one of the reasons for that. The 
reason, of course, is that every agency, no matter how large, 
has to fill certain requirements. You need someone handling 
accounting and human resources whether you have 5 people or 50. 
In business they call these ``fixed costs'', and they are one 
of the economies of scale enjoyed by large companies.
    I know that EAC has tried to minimize the relative cost of 
their small size, first by outsourcing some functions to GAO, 
and now by cooperating with other small agencies to share some 
of those fixed costs.
    But the real point isn't whether EAC is spending a lot or a 
little on personnel. The real question is, Does the work EAC 
produces justify the money that we spend on it. Now, I am of 
the opinion that few things are more important in our country 
and more deserving our support, including financial support, 
than ensuring that every American citizen's right to vote is 
protected, but that doesn't mean that I will sit still while a 
single penny is wasted on an agency that isn't helping to do 
that. So is EAC helping America to vote? It is my opinion, Mr. 
Chairman, that the answer is yes.
    The chairman and others of my colleagues have mentioned 
that the National Association of Secretaries of State, a letter 
written some time ago calling for the dissolution of EAC. Of 
course, that resolution was first adopted in February 2005, as 
pointed out, when EAC was barely 2 years old and certainly 
going through the terrible twos.
    It was renewed last summer, and Mr. Rokita and Secretary of 
State Browning have both cited the resolution. But I notice 
that the renewal wasn't sufficiently important to the 
association for them to update the resolution. So it still 
calls for EAC to fade out of existence, quote, ``after the 
conclusion of the 2006 Federal general election.''
    I also note we have had the president of the association 
testifying before this subcommittee just a few weeks ago, and 
Minnesota's Secretary of State Ritchie had many complimentary 
things to say about EAC. So the opinion among Secretaries of 
State is clearly not unanimous.
    There is a further point that needs to be made. The 
secretary of state is the chief election official in most, if 
not all, of our States. But, that means they are like the 
general who organizes the campaign. It is the local election 
officials who are on the front lines dealing directly with the 
voters and struggling to ensure that our elections, the very 
foundation of our democracy, run smoothly.
    And what they do and what do they have to say when they are 
doing it? At our last hearing Susan Gill, supervisor of 
elections of Citrus County, Florida, spoke glowingly of EAC and 
how, quote, ``the Help America Vote Act provided the continuity 
needed on the national level, but left the states to devise how 
best to serve their voters.'' I have never heard a better 
description of how our federal system is supposed to work.
    Now, my own election official--because we all know that all 
politics, voting activity and how it is conducted, is truly 
local--but Jacque Callanen Bexar County, Texas, she speaks of 
EAC's ``terrific outreach'' and ``fantastic'' services. And 
Chairman Lungren's local election official, Ms. LaVine, speaks 
highly of EAC in her written testimony.
    Indeed, Mr. Chairman, at this time I would ask unanimous 
consent to enter into the record a total of seven letters from 
local election officials from Virginia to California, 
Republicans and Democrats and nonpartisan, as well as letters 
from the League of Women Voters and the Leadership Council on 
Civil Rights and Human Rights.
    Mr. Harper. Without objection.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T7345A.001
    
    [GRAPHIC] [TIFF OMITTED] T7345A.002
    
    [GRAPHIC] [TIFF OMITTED] T7345A.003
    
    [GRAPHIC] [TIFF OMITTED] T7345A.004
    
    [GRAPHIC] [TIFF OMITTED] T7345A.005
    
    [GRAPHIC] [TIFF OMITTED] T7345A.006
    
    [GRAPHIC] [TIFF OMITTED] T7345A.007
    
    [GRAPHIC] [TIFF OMITTED] T7345A.008
    
    [GRAPHIC] [TIFF OMITTED] T7345A.009
    
    [GRAPHIC] [TIFF OMITTED] T7345A.010
    
    [GRAPHIC] [TIFF OMITTED] T7345A.011
    
    [GRAPHIC] [TIFF OMITTED] T7345A.012
    
    Mr. Gonzalez. Now, I was surprised to read that one of the 
witnesses will testify that the problems EAC was created to 
address ``are essentially resolved,'' and that there is no need 
for EAC. Frankly, I am amazed that anyone would say that while 
we are still in the midst of the Wisconsin recount in which 
14,000 votes went missing, votes that could be decisive in that 
race.
    Now, Wisconsin is a race for a State office, but can you 
imagine how much trouble this would cause if it was a federal 
office that was in dispute? We don't have to imagine. The 
citizens of Minnesota had to make do with only one senator for 
6 months in 2009, less than 2 years ago, as the state struggled 
to administer the 2008 election, and next year is a 
presidential year that presents its own set of challenges.
    EAC does have its problems. It has for some time. But it 
also remedied many problems, and the officials who run our 
elections say that EAC helps them do so better than any other 
agency. In such a situation, the proper response is to improve 
EAC, not throw up our hands in frustration.
    In 1788, the country faced a problem: It had a government 
that didn't work. Money was wasted, and problems were mounting 
as the government's central purposes--establishing Justice, 
ensuring domestic Tranquility, providing for the common defence 
and promoting the general Welfare--weren't being met. They 
could have said, ``Well, we tried. The government we created 
did the main thing we created it for when in the Revolutionary 
War, but now it has just broken down, and we will dissolve 
it.'' They could have said that, and some people did. But other 
people, we call them the Founders, said, No. Instead they 
created an improved government, one that has served us well for 
222 years, but which itself has required 27 amendments, thus 
far, to improve its functioning.
    If they could do that, which is monumental in our history, 
I think we can tweak, and we can improve and have a more 
effective EAC. It's not a question of dissolving and doing away 
with something that is so important in protecting the rights of 
all Americans to cast their vote.
    Thank you for your indulgence, Mr. Chairman. I yield back.
    Mr. Harper. Thank you. Does any other Member wish to be 
recognized for the purpose of an opening statement?
    The gentleman from Indiana Mr. Rokita is recognized.
    Mr. Rokita. Thank you, Mr. Chairman.
    We are hearing talking about ending a commission that has 
become a burden to the American taxpayers and simply, to my 
friend Mr. Gonzalez, is not needed. The Founders specifically 
said this in the Constitution when they left the procedures and 
processes surrounding our elections to the States to quite 
honestly do a much better job than any Federal bureaucracy can 
possibly dream of doing.
    I know a little bit about this because as former secretary 
of state for Indiana, I have practical experience with the 
Election Assistance Commission and with conducting elections at 
the State level.
    The EAC was created by the Help America Vote Act to help 
States replace old punch-card and lever-voting systems and to 
implement statewide voter registration databases. These were 
necessary updates, I certainly agree, due to the voting machine 
issues illuminated in the 2000 Presidential elections. HAVA 
authorized $10 million per year for EAC, but last year the EAC 
actually spent $18 million. The budget request we received from 
EAC this year reflects administrative costs as 51 percent of 
the budget. Such funds are a waste.
    In a hearing held in March, the committee heard firsthand 
accounts of the EAC's bloated budget, including an ever-growing 
staff with shrinking responsibilities and discriminatory hiring 
practices. Additionally it was found that the EAC was spending 
more money on management than on actual programs.
    Mr. Chairman, like the fate of so many of the Federal 
Government's ideas and programs, this one has become nothing 
more than a large bureaucracy supporting a small program 
mandate that has largely been completed at this point. In 2005, 
I authored, and the National Association of Secretaries of 
State voted on, a resolution to dissolve EAC after the 2006 
election. Congressman Gonzalez's point there is correct. That 
resolution was based on the fact that the task outlined in HAVA 
was nearly completed at the time.
    Where Congressman Gonzalez, I believe, is wrong, Mr. 
Chairman, is that there was another resolution. NASS renewed 
the call to dissolve the Commission in 2010. Furthermore, Mr. 
Chairman, that vote at the National Association of Secretaries 
of State was nearly unanimous. Only two of our members voted 
against it, and we had more Democratic secretaries of state, I 
believe, at the time than we had Republicans. So it was 
certainly bipartisan. Furthermore, Secretary Ritchie, who 
Congressman Gonzalez mentioned, voted for the resolution to get 
rid of the EAC.
    It is now 2011, and the EAC still exists. When the 
Commission was created, the Congress agreed that it should only 
be authorized, Mr. Chairman, for 3 years. Five years after 
that--the authorization date, after the scheduled 
deauthorization, the American taxpayers are still footing the 
bill, and the amount of work that is getting done can be done 
by some other agency, like the Federal Election Commission.
    At a time of crushing debt and deficits, the money spent on 
EAC cannot be justified. I do not believe that the creation of 
the EAC was necessary in the first place.
    As I noted earlier, the 2000 Presidential election brought 
awareness of needed changes to our voting system and 
registration databases. And with some assistance from the EAC 
at the time, the States--the States--took care of the problems. 
We didn't need another Federal bureaucracy. Furthermore, those 
changes could have been made by, like I said, other already 
existing entities.
    To date we have spent $147 million on the EAC, and, again, 
it wasn't necessary. I am proud to be a cosponsor of the 
chairman's bill to eliminate this duplicative, overly 
administrative agency. Supporting the EAC and its bloat, and 
its waste, and its inefficiency, and its ineffectiveness by 
comparing it to the bloat, the waste, the inefficiency, and 
ineffectiveness of other agencies is not the answer. That is 
not an answer at all. That attitude is what is part of the 
problem of this growing Federal Government that many of us were 
sent here to get under control.
    I would like to thank the witnesses for being here. I look 
forward to hearing them, and I want to especially welcome my 
Sigma Chi fraternity brother Steny Hoyer for being here today.
    Mr. Chairman, I yield back.
    Mr. Harper. Thank you, Mr. Rokita.
    And it is now my privilege to introduce our first witness, 
who we are especially pleased to have here given your service 
on this committee, and I know your interest, long-time 
interest, on elections reform. And we could truly say you are a 
witness who needs no introduction, but you are now serving your 
16th term.
    Congressman Hoyer represents the Fifth Congressional 
District of Maryland and is the longest-serving Member of the 
House from Maryland in our history. First elected in 1981, 
Congressman Hoyer has had a distinguished career, having served 
as deputy majority whip, cochair of the Democrat Steering 
Committee, chair of the Democratic Caucus and majority leader. 
In the 112th Congress, he is the House Democratic whip, a 
position he also held from 2003 to 2007. And, of course, 
Congressman Hoyer is a former member of the Committee on House 
Administration and served as ranking member during 
consideration of the Help America Vote Act that created the 
Election Assistance Commission. We are honored to have 
Congressman Hoyer here and thank him for his dedication to 
public service.
    Congressman, we look forward to hearing from you today, I 
obviously don't need to give you any instructions other than 
you are recognized for 5 minutes.

STATEMENT OF THE HON. STENY HOYER, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF MARYLAND 

    Mr. Hoyer. Thank you very much, Chairman Harper, members of 
the committee, and Mr. Gonzalez. I appreciate the opportunity 
to appear here before you. I want to thank you for inviting me 
to testify today on the important work of the Election 
Assistance Commission and why we must make sure that that work 
continues.
    The work of the EAC matters to voters who deserve assurance 
that their vote will count on election day and to poll workers 
who across the country are being asked to do more with less and 
still ensure that polling places operate smoothly.
    I would make as an aside the observation that not only do 
the States obviously conduct State elections, but they conduct, 
as we all know, extraordinarily important Federal elections. In 
the first 210 years or 15, 20 years of our existence, the 
Federal Government gave no assistance to them to do so.
    Abolishing the EAC would be an invitation, in my opinion, 
to repeat the mistakes that blemished our democracy in 2000. 
The debacle of the 2000 Presidential election embarrassed the 
United States and showed just how flawed elections systems 
were. Regardless of their feelings about the controversial 
outcome of that election, Republicans and Democrats alike 
agreed that the Federal Government had a duty to step in and 
improve election systems and procedures so that every qualified 
citizen's vote is, in fact, counted; to provide States the 
financial and informational resources--I stress informational 
resources--to upgrade their voting and registration systems, 
train their poll workers, and improve access for disabled 
voters. The result was the bipartisan Help America Vote Act, 
which I was proud to help write when I was the committee's 
ranking member. I might say that a very distinguished member, 
Bob Ney, worked with me on that and in a bipartisan way.
    HAVA, which established the EAC, overwhelmingly passed the 
House 357 to 48. That was, of course, when your party, Mr. 
Chairman, was in control of the House of Representatives. This 
was not imposed by Democrats on the country, it was supported 
in a bipartisan way and overwhelmingly by the secretaries of 
state as well. It passed the Senate with only two votes against 
it. So this was not a partisanly imposed bureaucracy on the 
neck of the American people or the States. It was in a 
bipartisan way decided that this was an important addition to 
our election monitoring and effectiveness.
    Before HAVA, the Federal Government worked to guarantee 
voting rights, but it had no serious involvement in the nuts 
and bolts of elections, conditions in our polling places and 
voter registration offices that ensure that our precious voting 
rights are translated into a vote that counts. That is not 
simply a concern of the State officials, which it is, it is 
clearly a concern of the Congress and the American people 
generally.
    I presume the people of Indiana are concerned about whether 
or not we have fair voting in Maryland. Clearly the Maryland 
voters are concerned whether we have fair voting in Indiana. 
Why? Because the votes in both States affect who the President 
of the United States is going to be, so that there is a 
national interest in elections, not just a State interest.
    For over 200 years the Federal Government in effect got a 
free ride from States when it came to elections. And, in fact, 
as I am sure the former secretary of state of Indiana knows, my 
brother in Sigma Chi, traditionally all States, all governments 
have had trouble with resources. Where was it easiest to cut? 
Elections.
    Congress passed HAVA because it recognized that the Federal 
Government had to step up to the plate with the resources to 
help ensure that every vote is, in fact, counted. HAVA 
authorized 3.8 billion in grants to States to buy new voting 
machines, improve voter registration procedures and train poll 
workers. HAVA also created the Election Assistance Commission, 
a four-member bipartisan Commission, which only has two members 
right now, whose job is to administer grants to States and 
provide States with ongoing guidance. It is that really 
function that I think is a critically important one so that we 
have a national perspective as well as a State-by-State 
perspective. Just as important, it provides expert advice on 
how polling places and voting machines can be fully accessible 
to disabled voters, which Mr. Ney and I were both very focused 
on.
    The EAC has created a comprehensive program to test State 
voting systems for accuracy. And use of this program has been 
shown to save our State millions of dollars and up to 12 months 
of testing time.
    The EAC is dedicated to transparency and makes its methods 
and test reports public so that the public can hold both the 
EAC and voting machine manufacturers accountable. In addition, 
the EAC develops best practices for Armed Forces to ensure that 
the votes of our troops are accounted fairly. Let me emphasize 
that. It also is involved, and we have made very sure, with 
making sure that those folks from Indiana or Maryland or Texas 
or any other State, including your own, Mr. Chairman, are 
treated fairly, notwithstanding they may be deployed to 
Afghanistan or Iraq or some other trouble spot in the world. 
Prior to the EAC, a narrow range of voting-related activities 
was conducted by the Federal Election Commission.
    Let me comment on the comment the former secretary of state 
made about the Federal Election Commission perhaps could 
undertake the responsibility. The focus of the Federal Election 
Commission and the EAC are totally different. The Federal 
Election Commission is concerned about the financing of Federal 
elections and the enforcement of financing laws. They have 
their hands full, as all of us know. Totally different 
perspective than how elections are run as opposed to how 
candidates run. The FEC's mission is to ensure that campaign 
finance laws are obeyed. As I said, HAVA's lead sponsors 
quickly learned that voting-related issues are not the same by 
any stretch of the imagination. Transferring most of the EAC's 
function to the FEC, in my opinion, would be a mistake.
    The EAC, as all of us have observed and with which I agree, 
has not been, is not now a perfect agency. Does it need 
oversight? Yes. Does it need efficiencies? Yes. Should you as 
the committee of jurisdiction and the Appropriations Committee 
as well look at these, make cuts where cuts are appropriate? 
Certainly. But should that mean that, therefore, we should 
abolish an agency which the Congress overwhelmingly decided was 
a useful, an appropriate function for the Federal Government to 
follow? I think not.
    Mr. Chairman, I would submit the balance of my statement 
for the record and urge you as you consider this to improve, do 
not eliminate, because if we eliminate it, it would mean that 
the Federal Government will have no effective participation in 
ensuring that every vote counts, that the Voting Rights Act 
means something for every American whomever they might be, and 
Federal elections as well as State elections are held in a 
manner to give confidence to every voter that his or her vote 
will count and that the votes of every other American will 
count. And I thank you for this opportunity.
    Mr. Harper. And we thank you for being here, Congressman 
Hoyer. Thank you for your leadership in the House and your 
history of leadership on this committee, and we appreciate your 
insight.
    Mr. Hoyer. Thank you, Mr. Chairman.
    Mr. Harper. Thank you.
    We will now call the second panel up, please.
    I now would like to introduce our second panel of 
witnesses, some who probably just flew in. We appreciate that 
dedication to get here and to share your testimony.
    Our first witness, the Honorable Delbert Hosemann, is the 
secretary of state of the great State of Mississippi. The 
secretary is serving his first term, having been elected in 
2007. As chief elections officer from Mississippi, Secretary 
Hosemann has sought to protect Mississippians' right to vote by 
visiting precincts around the State during elections, working 
very closely with the circuit clerks and elections 
commissioners, and supporting voter education programs such as 
Promote the Vote for young Mississippians and Vote in Honor of 
a Veteran.
    The Honorable Kurt Browning is Florida's secretary of 
state, having been appointed this past January. He also served 
as secretary of state during the previous administration, 
serving from December 2006 until April 2010. Prior to that 
appointment Secretary Browning spent 26 years as the supervisor 
of elections for Pasco County, where he was extensively 
involved in Florida's election community, serving as the 
president of the Florida State Association of Supervisors of 
Elections; and as a member of Governor Jeb Bush's Task Force on 
Election Procedures, Standards and Technology; and as a member 
of the State Planning Committee for the Help America Vote Act.
    Mrs. Jill LaVine is the registrar of voters for Sacramento 
County, where she is responsible for the day-to-day operations 
of the division of voter registration and elections. She has 
been registrar for almost 8 years and has worked in elections 
for over 24 years. In addition to her election duties, Mrs. 
LaVine is also responsible for the redistricting of the 
supervisoral boundaries following the 2010 census, a very 
exciting and thankless job. She is the cochair of the 
legislation committee for the California Association of Clerks 
and Election Officials, and is also a member of the election 
center. She has testified before Congress on paper audit 
trails, and therefore the EAC, regarding accessibility 
standards for voting systems.
    Mr. John Fortier was a research fellow at the American 
Enterprise Institute, where he was the principal contributor to 
the AEI-Brookings Institution Election Reform Project and 
executive director of the Continuity of Government Commission. 
This month he joined the Bipartisan Policy Center as director 
of the Democracy Project.
    You each have a wealth of knowledge and experience, and we 
will look forward to hearing your testimony shortly.
    I would like now to recognize the distinguished 
Representative from New Hampshire, Congressman Charlie Bass, 
who will introduce our final witness.
    Congressman Bass, you are recognized.
    Mr. Bass. And I thank the chairman for your indulgence. And 
I understand that it isn't customary to have double 
introductions, if you will, for witnesses, but New Hampshire's 
secretary of state Bill Gardner is a special friend and a great 
citizen of the State of New Hampshire. He was elected secretary 
of state, I think, a couple of years after I graduated from 
college, and that is the New Hampshire tradition. We have had 
probably no more than a half dozen, maybe a couple more, 
secretaries of state in the history of our State. Secretary 
Gardner has served with distinction and integrity now for many 
years. He is a Democrat who has been elected time and time 
again by a legislature that for almost all of his career has 
been controlled by the Republican Party.
    I spent a considerable amount of time and energy when I was 
in the New Hampshire Legislature and the New Hampshire State 
Senate working on issues involving elections and ethics, and 
Secretary Gardner was at my side for most of that period--all 
of that period of time. And I think during that time we made 
good progress on various--many areas of election law in New 
Hampshire and also ethics.
    Bill Gardner is also a personal friend, an advisor, and 
probably one of the less nationally or State-known individuals 
who wields power beyond any other secretary of state in the 
Nation because he has, in essence, the sole power to set the 
date of the New Hampshire primary, which is, of course, the 
first in the Nation and will remain so forevermore.
    So without any further ado, I bring you my good friend, the 
secretary of state, Bill Gardner.
    Mr. Harper. Thank you, Congressman Bass.
    I thank each of you for being here.
    As I mentioned with Congressman Hoyer, the committee has 
received your written testimonies. At the appropriate time I 
will recognize each of you for 5 minutes to present a summary 
of that submission.
    To help you keep the time, you will see in front of you a 
timing device. The device will be green for 4 minutes and will 
turn yellow when you have--1 minute remains. When the light 
turn red, it means that your time has expired, and we would ask 
you to bring it in for a landing at that point.
    So we will begin with Secretary Gardner and ask you to 
please proceed.

 STATEMENTS OF WILLIAM M. GARDNER, NEW HAMPSHIRE SECRETARY OF 
 STATE; DELBERT HOSEMANN, MISSISSIPPI SECRETARY OF STATE; KURT 
BROWNING, FLORIDA SECRETARY OF STATE; JILL LAVINE, REGISTRAR OF 
   VOTERS, COUNTY OF SACRAMENTO; AND JOHN FORTIER, AMERICAN 
                      ENTERPRISE INSTITUTE

                STATEMENT OF WILLIAM M. GARDNER

    Mr. Gardner. Thank you. Good morning, Mr. Chairman and 
members of the committee. I was going to say something a little 
special about Congressman Rokita. And I want to thank 
Congressman Bass, who is like having a brother here with me, 
because we go back a long way. I worked with him when he served 
in the house, when he served in the senate. He chaired the 
elections committee in the senate and the ethics committee. He 
is from a distinguished longtime family; his grandfather was 
Governor, his father was a Congressman and then a Senate 
President.
    I will get to the business.
    I support this legislation wholeheartedly. I do so with 
very strong passion. When this Commission was established in 
2004 and had its first meeting in March of that year, within 2 
months it was making national headlines all across the country 
because letters had been sent out that hinted at having the EAC 
become the authority for determining whether we had a 
Presidential election or not in 2004--later in 2004. Actually 
when we went to our conference that summer, it was the 100th 
anniversary of the association, and as we talked about it 
amongst ourselves, that was the news in all the States. What 
was this new upshot Federal agency, what was it? And how could 
this be?
    In my State there were several newspaper editorials that 
referred to how the country had an election in the middle of 
the Civil War, had an election during World War II. How can 
this be? So we made a statement as secretaries. We sent a 
letter. The letter made it to Congress. Within a week or so the 
Congress voted 419 to 2 saying that there is no Federal agency 
that is going to have this kind of authority; the States run 
the elections.
    Well, after that, legislation was introduced in both the 
House and the Senate that would increase the authority of EAC, 
and give it rulemaking. That gave us a lot of concern, and in 
2005 we passed this resolution saying that when the States 
complied with HAVA, it should go away, i.e. the EAC. And at the 
time we were discussing ``How? With eight staff members, what 
were they for?'' The concern was that in a few years there may 
be twice or three times as many. And so we passed it. As 
Congressman Rokita said, it passed pretty substantially, just 
less than a handful against.
    And then 2 years later we passed another resolution in 2007 
where we mentioned this again. And in 2008, we passed another 
resolution entitled ``Maintenance of Effort,'' but it had in 
the resolution our concern about the expanding role in programs 
and why it should continue not to be reauthorized.
    In 2009, we passed another resolution, and it was about 
payments and grants, because it appeared to us what was being 
done was not helping the States, but it was just creating more 
burdens for the States, and States particularly that have small 
staffs.
    So then it continued. And that came to a point now where, 
as some of the States--many of the States were reminded in the 
last 3, 4, 5 months that there was payments money left that 
they hadn't taken yet. But what has been done is that in order 
to get that money, the States have to agree that it is grant 
money. Ninety-nine percent of the funding for the States has 
been payments money, but the director is called grants 
director. After our resolution it was changed to director of 
grants and payments. Now it is back to just grants. Why? 
Because it falls under OMB; there are more strings attached; 
there is more taking away from the States.
    And so the bottom line--and there has been a continuing 
attempt to have more programs and power, more authority, and we 
don't like that.
    In 2010, we did it again, and we just said, enough is 
enough. We have done this now five times as an association and 
feel very strong about it, and I applaud you for the 
legislation.
    I might just say, Congressman Rokita came back when I 
thanked you for coming in. I just want to say that he is a 
friend and a former colleague, and I am proud, and I know a lot 
of the rest of us are, to be able to call him a Congressman and 
address him that way. We in New Hampshire have a reverence for 
Indiana, because if it wasn't for Indiana, we wouldn't have the 
first-in-the-Nation primary.
    Mr. Harper. Thank you so much, Secretary Gardner, for your 
testimony and for being here today.
    [The statement of Mr. Gardner follows:]

    [GRAPHIC] [TIFF OMITTED] T7345A.013
    
    [GRAPHIC] [TIFF OMITTED] T7345A.014
    
    [GRAPHIC] [TIFF OMITTED] T7345A.015
    
    [GRAPHIC] [TIFF OMITTED] T7345A.016
    
    [GRAPHIC] [TIFF OMITTED] T7345A.017
    
    [GRAPHIC] [TIFF OMITTED] T7345A.018
    
    [GRAPHIC] [TIFF OMITTED] T7345A.019
    
    Mr. Harper. I now ask unanimous consent to enter into the 
record the letters and NASS resolutions mentioned by Secretary 
Gardner in his testimony. Without objection, so ordered.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T7345A.020
    
    [GRAPHIC] [TIFF OMITTED] T7345A.021
    
    [GRAPHIC] [TIFF OMITTED] T7345A.022
    
    [GRAPHIC] [TIFF OMITTED] T7345A.023
    
    [GRAPHIC] [TIFF OMITTED] T7345A.024
    
    [GRAPHIC] [TIFF OMITTED] T7345A.025
    
    [GRAPHIC] [TIFF OMITTED] T7345A.026
    
    [GRAPHIC] [TIFF OMITTED] T7345A.027
    
    [GRAPHIC] [TIFF OMITTED] T7345A.028
    
    [GRAPHIC] [TIFF OMITTED] T7345A.029
    
    [GRAPHIC] [TIFF OMITTED] T7345A.030
    
    [GRAPHIC] [TIFF OMITTED] T7345A.031
    
    Mr. Harper. I will now recognize Secretary Hosemann for 
your testimony for 5 minutes, and welcome.

                 STATEMENT OF DELBERT HOSEMANN

    Mr. Hosemann. Thank you. Thank you, Congressman Harper. 
Good to see you. You are missed at home. Apparently the adage 
of the State of New Hampshire, Don't Tread on Me, still applies 
to Bill.
    In light of the budget issues and the international 
conflicts and national debt ceilings that we have got here that 
you all are all facing and the country is facing, election 
issues seem to be less important. However, as everyone who 
charts this country's path comes through the electoral process, 
we believe it is very important what you are doing today.
    I have given you my comments in writing, and I will just 
summarize those quickly. Obviously, under HAVA we have had an 
explosion of scrutiny of increased types of voting systems. But 
the key to HAVA, of course, was to give Federal funding to 
elections, to develop standards in election administration, and 
the systematic collection of data. That is what we were about 
when you started this.
    In this environment the EAC was created. It placed--this 
was the genesis, and Congress in its wisdom in 2002 gave it 
only a 3-year life. It was not appointed perpetually.
    My colleagues at NASS, as Congressman Rokita has already 
pointed out, have voted time and again to abolish the EAC. 
Those votes were, as he mentioned, bipartisan and, in fact, 22 
to 3 with 3 abstentions the last time it came up. Frankly, Mr. 
Chairman, this is a time which has come and a time now that is 
overdue.
    As a threshold matter I would want explain to the committee 
that we could not have implemented the Federal standards 
without the assistance of some $35 million to the State of 
Mississippi. Those were the HAVA grants, and we hope that we 
have used them, and we believe we have used them, in accordance 
with HAVA's mandates. However, EAC's role, as I agree with the 
majority of my NASS colleagues, EAC has become redundant as we 
move forward in the enforcement of HAVA. Many of their 
functions or all their functions can now be utilized by other 
organizations. And I have read the statutory language that you 
have drafted.
    There is nothing in the administrative functions of EAC 
which cannot be performed by another entity. The funding, the 
standards, the data collection are all things that can be done 
from others. My colleagues here from Florida and New Hampshire 
are here with me today. We share this information that is 
gathered under HAVA, and it is very helpful in creating 
solutions to the electoral process.
    I am not opposed to reporting for the reasons mentioned. 
EAC could be more efficient, and I have outlined those in my 
comments. The secretary of state of Mississippi has no 
statutory authority to require counties to provide the 
requested data of the EAC, although we get the initial contacts 
for each of them.
    The lack of information that is reported from the counties, 
it is very hard to prepare this 58-page document and get it 
back on time. Standardization of the reporting data is very 
important as a step going forward, although we don't believe 
that the EAC is the one to do that. We believe FVAP and DOJ, 
the Department of Justice, can both do this as well as the FEC.
    I read with some interest the involvement in military and 
overseas voting. Of five secretaries of state that went to 
Afghanistan and Iraq to promote votes for the Presidential 
election, three of them are sitting here today. We got really 
good information. We learned a great deal of respect for the 
members of our military and how the voting was going to be 
conducted. I know firsthand what secure Internet-based access 
is.
    However, the EAC has come in with two grants to research 
technology for injured members of the military and also create 
guidelines for the design of remote electronic voting systems. 
Those could be handled by FVAP or by the FEC.
    One area of standardization I mentioned in here in regards 
to reporting requirements. They have changed over the years, 
and we have had reports--the ones where we follow the prior 
year's reports, we have had those rejected and had to refile 
them. Under the EAC guidelines, they have moved around.
    I want to say, Mr. Chairman, that from my experience, in 
all due respect to Congressman Hoyer's statements before, this 
issue is not about the continuing of enforcement of HAVA. We 
all support that. The secretaries of state have repeatedly 
supported that.
    We are the ones that train the elections officials at the 
local level, as you well know. We educate election 
commissioners, and we maintain the systems, and we assure 
disability access, and educate the voters. All of the things 
that were required in HAVA when we started are done by the 
secretaries of state in the local reporting agencies. It is not 
about HAVA here; it is about the fact that the EAC's 
responsibilities can be better utilized in other locations, and 
the government can function better.
    All of the issues that I have raised today we raise on 
behalf of all of the secretaries of state, although I do not 
mention--I am not speaking for NASS today.
    I do think it is critically important that we continue the 
three functions of HAVA that I have mentioned to you, the data 
collection, the standardization, and hopefully the funding. All 
of those, though, can be better served by another agency, and 
this one has become redundant and expensive.
    Thank you for allowing me to come today.
    [The statement of Mr. Hosemann follows:]

    [GRAPHIC] [TIFF OMITTED] T7345A.032
    
    [GRAPHIC] [TIFF OMITTED] T7345A.033
    
    [GRAPHIC] [TIFF OMITTED] T7345A.034
    
    [GRAPHIC] [TIFF OMITTED] T7345A.035
    
    Mr. Harper. Thank you, Secretary Hosemann. Appreciate your 
being here and your friendship and your dedication to our great 
State of Mississippi.
    I now recognize Secretary Browning for 5 minutes. You may 
proceed.

                   STATEMENT OF KURT BROWNING

    Mr. Browning. Thank you, Mr. Chairman and members of the 
committee, for the opportunity to be here today to provide 
testimony for H.R. 672. Today I speak in support of this 
legislation, and, as you know, elections administration has 
always been a responsibility of the States. With the passage of 
the National Voter Registration Act of 1993, I believe the 
Federal Government took its first major step into their 
involvement in the conduct of elections. Certainly after the 
2000 general election that has been frequently mentioned today, 
Congress passed the Help America Vote Act of 2002 that I 
believe went even further into the administration of elections, 
and under that act created the Elections Assistance Commission 
and provided much-needed funding to the States for modernizing 
their voter registration systems as well as their voting 
systems. And we continue to be appreciative certainly of that 
assistance.
    The EAC was also tasked with administering, obviously, the 
number of grants to study various elections-related issues. The 
creation of the Election Assistance Commission was probably a 
good idea at the time, because it did provide a means of 
administering the requirements payments for the State, as well 
as providing some much-needed uniformity that was pretty much 
nonexistent among the States. It also had a limited life span.
    It continues to operate today as a Federal agency that has 
grown both in staffing and in its budget. It appears to me to 
be an overlap of responsibilities between the EAC and other 
Federal agencies. As Secretary Hosemann has mentioned, some of 
the military initiatives that the EAC has involved themselves 
with is something that to me only makes sense that the Federal 
voting assistance program would be the logical home for some of 
those initiatives.
    My experience with the EAC has been mixed at best. In my 
opinion, the EAC has outlived its usefulness. In 2007, I 
appeared before the EAC seeking guidance from the Commission 
regarding the use of Florida HAVA dollars that we still had on 
account for the purchase of voting systems when we were moving 
from touch-screen to optical-scan voting systems. After a great 
deal of testimony and questions, they, the Commission, were 
unable to provide any definitive answer to me for a very timely 
topic and in need of a very timely answer since my legislature 
was in session. It was only after discussion with the 
Commission's general counsel that an answer was provided, and 
then and only then was it a tentative answer.
    A common criticism is the EAC's voting system 
certification, and that it has taken extended amounts of time 
to certify systems. It wasn't until recently that they 
certified their first system after having been in existence for 
as long as they have.
    The other thing that is a concern is the continually 
changing voting system standards. No sooner is a set of 
standards adopted by the EAC before they are preparing a new 
round of standards. This constant state of flux has cost the 
voting system's manufacturers millions of dollars, and in turn 
those costs are passed on to local and State governments. For 
that reason Florida chose not to require Federal voting system 
certification, but instead to rely on our own rigorous voting 
system certification program. In my opinion, we can certify a 
system faster and more accurately in Florida than the EAC.
    As has been stated a number of times today, the National 
Association of Secretaries of State has, in fact, adopted a 
resolution in 2005 and again in 2010 calling on Congress not to 
reauthorize funding or--reauthorize the EAC or its funding, and 
I supported that resolution. I do, however, believe that they 
should have gone further by providing specific suggestions to 
you, the Congress, as to the disposition of the functions of 
the EAC.
    The legislation today calls for the termination of EAC and 
reassignment of most of its responsibilities to the Federal 
Election Commission. I believe a more philosophical question 
that I believe needs to be asked and answered in light of this 
legislation is does the Federal Government need to continue 
administering a program intended to fix problems that are now 
10 years old and have essentially been resolved? If the Federal 
Government is going to continue to be involved with voting 
system certification issues, I would recommend and certainly 
suggest that this be transferred to the Federal Election 
Commission and not the National Institute of Standards and 
Technology as currently proposed.
    Certainly with the passage of this legislation, the 
Standards Board and the Advisory Board cease to exist. I 
believe there needs to be some formalized process that State 
stakeholders have in providing input to the body that is going 
to determine these voting system standards as well as other 
things would impact the administration of elections at the 
State level.
    Certainly I am not an ardent supporter of Federal 
involvement in election administration, but I do believe that 
the issues that we are talking about today that are currently 
assigned to the Elections Assistance Commission could and 
should be assigned or reassigned to the Federal Election 
Commission, and I believe that it would be the best place to do 
it because of their continued relationship with the elections 
community.
    I would be more than happy to answer any appropriate 
questions at the appropriate time. Thank you, Mr. Chairman.
    Mr. Harper. Thank you, Secretary Browning, for being here.
    [The statement of Mr. Browning follows:]

    [GRAPHIC] [TIFF OMITTED] T7345A.036
    
    [GRAPHIC] [TIFF OMITTED] T7345A.037
    
    [GRAPHIC] [TIFF OMITTED] T7345A.038
    
    [GRAPHIC] [TIFF OMITTED] T7345A.039
    
    Mr. Harper. And I now recognize Mrs. LaVine for 5 minutes. 
Thank you. You may proceed.

                    STATEMENT OF JILL LAVINE

    Ms. LaVine. Thank you. Good morning. Thank you for this 
opportunity to speak here at this committee and to give you the 
viewpoint of the local election official if the EAC was 
terminated.
    In 2002, when the Help America Vote Act was being debated 
here in Washington, it was the topic of every election 
official. And I have to admit, I was on the concerned side. It 
was perceived that the Federal Government wanted control how 
the States and local elections conducted their elections. I 
changed my mind, however, when I saw what the EAC really did, 
that they were an Election Assistance Commission.
    In 2005, Sacramento County rolled out our new voter assist 
terminals for voters with disabilities. This was the largest 
rollout in any State at that time. The EAC was there to help 
and observe, and their experience was very helpful. I have been 
able to participate in several of the EAC projects, and in 
preparing the Election Management Guidelines and the Quick 
Start Guide. The Commission would gather together a group of 
election officials. We would get together and discuss the 
topic. We were not told what to do or what we were supposed to 
say, but rather how did we make this work, and what were our 
differences, and what could we suggest to improve the process.
    Since we represented different States, and worked under 
different laws, and used different voting systems, the finished 
products will help everyone.
    The Election Management Guidelines should be in every 
election office. I use them when I write procedures, when 
looking for ways to save money, and when writing RFPs for new 
equipment. However, election laws change, and technology 
changes, and these guidelines need to be updated, and the new 
elections trends need to be vetted with election officials 
having those experiences.
    There are two topics now that should be added: One, 
requiring identification to vote; and another would be on-line 
voter registration. I believe the EAC is the best organization 
to continue these projects. On the EAC Web site, it is one the 
best and most helpful clearinghouse spots for information for 
election officials from all States. I cochair the legislation 
committee in California, and as I prepare analysis of the bills 
to determine cost and impacts, I can do research on the EAC Web 
site and be able to make appropriate suggestions for 
amendments. I even used the Web site when I was asked by my 
county to prepare a contingency plan for the H1N1, or swine 
flu.
    As cochair of the legislation committee, I put on a yearly 
workshop to discuss all the laws that had been passed the 
previous year and the impact on the local officials. The EAC 
has been very supportive of this workshop and, when available, 
will speak at this meeting to update what is happening on the 
Federal level. It is that interaction to show their support and 
we build trust together.
    The authors of H.R. 672 recommend the termination of the 
EAC because they feel the job is done. HAVA has recommended--or 
one of the HAVA's requirements is that they have--every State 
have a statewide voter registration database. California does 
not, and right now the expected implementation date is 2015.
    Another requirement of HAVA is to improve voting systems. 
At this time Los Angeles County, the largest county, I think, 
in the Nation, is looking for a voting system. They are using 
their homegrown Inkavote system because there is not a system 
that will accommodate their needs. And California's passage of 
the Top Two Primary has increased their burden, and they will 
not be able to accommodate the number of candidates and 
contests for 2012.
    I bought our optical scan system in 2004, and soon it will 
be at the end of its lifecycle. Many counties are in the same 
position. HAVA's requirement to improve voting systems will 
always be an ongoing job.
    One fast food company used the saying, you don't notice 
clean until it is not there. Well, the same could be said for 
elections. No one pays any attention to an election official 
until something goes wrong. That is what happened in 2000. 
Election officials now are preparing for the Presidential 2012 
elections. Now is not the time to terminate the EAC.
    While the research projects first included in HAVA are 
complete, elections change, people change, voters change, 
technology changes, and the EAC also needs to be changed, but 
not terminated. Like all election offices facing budget cuts, 
we must look for new efficiencies. HAVA now requires three 
advisory boards for the EAC. I would suggest reviewing the need 
for all these members. I would recommend staffing all four 
Commissioners. There is no cost savings when decisions cannot 
be made to get the work done.
    In conclusion, I would recommend a change, not a 
termination, of the EAC. Election officials rely on the 
guidance and the resources that the Election Assistance 
Commission provides.
    Thank you.
    Mr. Harper. Thank you Ms. LaVine. Appreciate your 
attendance today.
    [The statement of Ms. LaVine follows:]

    [GRAPHIC] [TIFF OMITTED] T7345A.040
    
    [GRAPHIC] [TIFF OMITTED] T7345A.041
    
    [GRAPHIC] [TIFF OMITTED] T7345A.042
    
    [GRAPHIC] [TIFF OMITTED] T7345A.043
    
    Mr. Harper. I now recognize Mr. Fortier for his testimony. 
You are recognized, sir. Thank you.

                   STATEMENT OF JOHN FORTIER

    Mr. Fortier. Thank you, Mr. Chairman, and thank you, 
members of the subcommittee, for having me here today. I 
appreciate testifying on this subject, and I guess I have 
something of a middle view.
    I sympathize very much with the aim of the bill. There are 
a lot of reasons to think that we have a time of fiscal crisis, 
we should look at every line in the budget; that the EAC has a 
number of missions that it has completed and it is not going to 
be performing in the future; and finally, the questions about 
the EAC's management, and how much it spends on management, and 
how it allocates its resources. All of those point in the 
direction of doing something significant with the EAC.
    I do have some, a couple of reservations that caused me not 
to go down the road of absolutely calling for the termination 
of the EAC. One is that, I think, the one function of the EAC 
that is partially preserved by the bill, partially preserved in 
the FEC with reports on UOCAVA and reports on NVRAs, the 
research function; the research function, the ability to 
collect and standardize data, which can be very different from 
State to State. Not only the reporting of the data is uneven, 
but different things are called different things in different 
States. So it is very difficult to find a sort of common data 
across States, and the EAC performs a valuable function in that 
area.
    I guess I want to take you back to the time when Mr. Hoyer 
was sitting here at this table, was sitting where you are 
sitting, and we had the 2000 elections crisis, and it really 
was a time when Washington had to figure out how elections 
worked. There were secretaries of state, local elections 
officials well versed in these issues, but in many ways 
Washington wasn't, scholars weren't versed in these things. And 
we spent a couple of years in this committee and various 
private commissions around the country trying to get a real 
handle on how the whole system works. We had worked on it 
episodically here and there, but having a place that can look 
at the elections system as a whole and collect data, I think, 
is significant and important.
    Two things I would highlight. One is that, yes, you 
preserve some of the research functions. But I do think that 
the Elections Administration Survey, which really is part of a 
larger survey that includes UOCAVA and NVRA, is valuable. The 
work that I have done on early and absentee voting, information 
about provisional ballots, about types of voting machines, just 
getting a sense of the landscape of where we are across this 
very, varied country, is something I think is worth preserving.
    I do think a more robust research component in general than 
has been proposed by the bill would be worthwhile. Thinking 
about a State of Voting in America report coming out regularly 
that would be a Federal and independent voice of what was going 
on in the country would help policymakers here in Washington, 
policymakers in the States, and elections scholars as well.
    The other concern I have is that elections administration 
issues might get lost. The FEC, of course, did have a 
responsibility for these matters before 2000. And we did come 
to the 2000 elections crisis and realize we didn't know enough 
about it here in Washington. And I worry that all of the 
resources of Washington knowing about elections will drain away 
if we don't treat this core responsibility of being able to 
describe the elections system well seriously.
    The committee here may find itself not as interested in 
these issues if there is not an EAC. Scholars may not write as 
many reports. There already is some sense that foundations and 
others are pulling away from this area. So I think it is 
important to keep these issues in the forefront.
    And I suggest a leaner, meaner EAC focused much more on 
research issues and making sure that we retain some of these 
core components. That might be a significantly smaller EAC than 
it is today, but certainly an important function. Or if you do 
need to move it to another place, to the FEC, I think the 
challenge here is to make sure that that part of the FEC has a 
voice. The FEC is a busy place, and Commissioners are concerned 
with other things, and getting Commissioners' time and getting 
a prominence to those issues, I think, is a challenge.
    So I am supportive of the strong look at the FEC, the need 
to streamline, cut down many of the functions, but I do think 
we need to look much more significantly about preserving a 
strong research function and finding a place, whether it is a 
smaller independent agency or as a part of the FEC, to make 
sure that those issues are not lost in other issues.
    Mr. Harper. Mr. Fortier, we thank you for your testimony.
    [The statement of Mr. Fortier follows:]

    [GRAPHIC] [TIFF OMITTED] T7345A.044
    
    [GRAPHIC] [TIFF OMITTED] T7345A.045
    
    [GRAPHIC] [TIFF OMITTED] T7345A.046
    
    [GRAPHIC] [TIFF OMITTED] T7345A.047
    
    [GRAPHIC] [TIFF OMITTED] T7345A.048
    
    [GRAPHIC] [TIFF OMITTED] T7345A.049
    
    [GRAPHIC] [TIFF OMITTED] T7345A.050
    
    [GRAPHIC] [TIFF OMITTED] T7345A.051
    
    Mr. Harper. And we now have time for committee members to 
ask questions of the witnesses. Each member is allotted 5 
minutes to question the witnesses, and, of course, we have the 
same time clock to look at, and I'll begin by recognizing 
myself for 5 minutes.
    And I certainly want to thank each of you for taking the 
time that you have out of a very busy schedule to be here and 
to give us some insight into this legislation on what we should 
do.
    And, of course, Mr. Fortier, recognizing some of the things 
that you said about research and things of that nature, one of 
the responsibilities for EAC was that they were to have--and 
this was assigned under HAVA--they were supposed to do a study 
on the use of Social Security numbers in voter registration, 
and I believe that it was due in 2005. And as of April 2011, we 
don't have it, even though there have been inquiries. And their 
response, EAC's response, was that it was the responsibility of 
the Social Security Administration, which they have responded 
back, no, under HAVA it is your responsibility. So we have had 
some disappointment in that response.
    I don't know if you were in the room when I did my opening, 
but we asked for simple questions to be responded to by April 
6th. How hard is that?
    And so there is a high level of frustration here as we look 
at what is going on. And EAC, having responsibility for 
fairness in elections, has two of their Commissioners commit 
political discrimination. That gets the government sued and 
results in a hefty settlement being paid by the taxpayers 
ultimately.
    So there are many things here that we are dealing with. But 
as it comes to research, which is certainly an important 
aspect, who else besides EAC can handle the research 
responsibilities that are already in the system?
    Mr. Fortier. Well, I do think it is important that there be 
a Federal role, a core Federal role. It is true that there--
since our problems in 2000 have been much more interesting to 
the academic community, certainly the secretaries of state, 
their organizations, and local elections officials, the 
elections centers do lots of good work in that area. But what 
is difficult is, and what I think needed is, an organization 
that can go to States and localities and say, look, we need 
relatively common information, and it is a difficult challenge 
because of the differences out there.
    I have written a book about absentee and early voting, and 
I know that each State calls it something different. And some 
States don't report at the State level on this. And I found 
myself having to go to town-level data. So just to know what is 
happening in the States for you, for Federal policymakers, for 
us requires some sort of core data. Yes, others can do 
additional research, but I do think that that is important to 
preserve.
    Mr. Harper. Thank you, Mr. Fortier.
    Secretary Gardner, if I may, can you explain the difference 
between a payment and a grant under HAVA and how the EAC's use 
of terms interchangeably affects your State or other States?
    Mr. Gardner. Well, a payment: 99-plus percent of the money 
that has been given to the States have been payments. To comply 
with the provisions of HAVA, make sure that all disabled voters 
have a way to participate that protects them, and create the 
statewide database. A grant was for colleges, for instance, 
that want to have a program for students that might want to 
work in a polling place. It amounts to a small amount of money; 
compared to almost 3 billion for payments, maybe 30 million for 
grants. But grants tie the States up. Grants have a lot more 
strings attached, and that really got to the fundamentals of--
is this just an attempt to prolong the existence by bringing 
the States in tighter in a way that doesn't give back? That is 
why we made a big point of it.
    It is laughable that there was a grants director and not a 
payments director, because the focus is towards the OMB and 
rules and rulemaking. That is what we at the State level are 
really concerned about. That is what your attempt--that is why 
I applaud you for that.
    This is--this is a waste of money. From all of my 
experience: We had the closest U.S. Senate race in history 
decided by two votes in 1974. The U.S. Senate decided--the 
Rules Committee--that they would do a recount themselves. Just 
like your counterpart, you--if you decided someday you wanted 
to do a recount because you are the final judge of the 
qualification election of your own members.
    We shipped all the ballots to Washington. They remained 
down here for about 20 years. About a decade ago someone called 
me and said, ``What are all these boxes doing in one of the 
closets in one of these buildings from New Hampshire, what are 
they doing here?'' They were the recount ballots, and the 
Senate spent 6 months and couldn't do it.
    And this is not--I wasn't expecting your question, but here 
is an example. This is one of these Quick Starts, best 
practice. This is about recounts. This is laughable what is in 
here. It doesn't help at all. I have done a lot of recounts in 
my day, and my testimony will tell you that. If the U.S. Senate 
got this when they were deciding to look at recounts, whoever 
did this, they would ask a lot of questions. This is just one 
example of spending money on this and other things that are 
part of this.
    Mr. Harper. Thank you, Secretary Gardner. I appreciate that 
very much.
    I am now going to recognize the ranking member Mr. Gonzalez 
for 5 minutes.
    Mr. Gonzalez. Thank you very much, Mr. Chairman. Let me 
ask, Mr. Gardner, are you for repeal of the Help America Vote 
Act.
    Mr. Gardner. No.
    Mr. Gonzalez. You would not.
    Mr. Gardner. I am not for repeal of the act. I am for 
repeal of the EAC.
    Mr. Gonzalez. I understand that.
    And, Mr. Hosemann, are you for repeal of the Help America 
Vote Act?
    Mr. Hosemann. No.
    Mr. Gonzalez. And, Mr. Browning, same question.
    Mr. Browning. No, sir.
    Mr. Gonzalez. Because you recognize that its goals and its 
purpose are quite valid; is that correct, Mr. Gardner?
    Mr. Gardner. Say that again, please.
    Mr. Gonzalez. The act itself, you don't want it repealed 
because it is a valid piece of legislation addressing very real 
issues that existed at the time of its enactment that are still 
present today in our elections system. It is a relevant piece 
of legislation, that is all I am saying. And I am assuming all 
three of you said you would not want to repeal it because you 
think it is a legitimate piece of legislation that is relevant 
today. That was just an assumption. And I only have 5 minutes 
because I want to get some other questions.
    I listen to your testimony, and it is almost as if you may 
be questioning the validity and the purpose of the act itself. 
So let us get that off the table. What you are really 
complaining about is the entity, the Election Assistance 
Commission as the entity that is charged, in essence, with 
carrying forth the goals of the Help America Vote Act.
    And I will follow that. My colleagues believe that it is 
inefficient, it costs too much, but if you read the letters 
that we have received from the other agencies that would 
subsume those duties, they are all telling you, We are 
understaffed. One, NIST has a conflict of interest; secondly, 
doesn't have the resources and would be asking for more monies. 
The FEC is telling you, We are ill equipped; we can't do it 
unless you plus up. So I don't know where the savings are going 
to come. So, I don't even think that is going to be relevant in 
this particular discussion. We are not seeking to pass this 
particular bill to really save any money, because no one is 
going to point at these other agencies.
    Now, let me ask you, do you really want to work with DOJ, 
NIST and the FEC as opposed to one entity that is charged with 
the responsibility of what is going to help you with the Help 
America Vote Act? Are you telling me you would rather be 
working with three, four, five different Federal agencies than 
one?
    Mr. Gardner. Your premise is you are saying it helps us. I 
don't believe it helps us. You said that the act helps us, and 
I am saying to you that I don't believe that it does help us.
    Mr. Gonzalez. Then why aren't you for repealing it? No, I 
mean, I think what we are really getting into is all sorts of 
philosophy and such, which is good. But I would--let me ask the 
three secretaries of state. Do all your local election 
officials share your opinions as expressed today in your 
testimony? Mr. Gardner.
    Mr. Gardner. Yes, I can say that--and I work very closely 
with our elections officials. We have over 6,000 that 
participate just on election night itself. We have workshops 
all year. When I have shown them some of these or they have 
seen them, there was no enthusiasm whatsoever.
    Mr. Gonzalez. All right. I'm saying that----
    Mr. Gardner. The whole thing about best practices----
    Mr. Gonzalez. Total waste of time? Nothing; they have not 
benefited at all by what the Election Assistance Commission has 
attempted to do nationwide? They would all agree with you?
    Let me ask you, Mr. Hosemann, do all of your local elected 
officials agree with your assessment in your testimony?
    Mr. Hosemann. They do.
    Mr. Gonzalez. So you can speak for each and every one of 
them?
    Mr. Hosemann. Well, I didn't speak with each and every one 
of them about here, but we do meet with election Commissioners. 
We train all of them. We have 400 of them. I visit with them on 
a regular basis, sometimes monthly, and oftentimes----
    Mr. Gonzalez. And they are all for doing away with EAC?
    Mr. Hosemann. They are frustrated with EAC.
    Mr. Gonzalez. No. They are all wanting to do away----
    Mr. Hosemann. The ones I have spoken with are in favor of 
doing away with EAC.
    Mr. Gonzalez. Well, what I am saying, ``all.'' Because I 
think you are going to find individuals in your own states--I 
am just assuming this; maybe I will hear from them, hopefully I 
would, because we do have some local officials that are willing 
to testify and correspond with us.
    Mr. Browning, same question. Do all of your local elected 
officials agree with your testimony today?
    Mr. Browning. The way your question is phrased, no.
    Mr. Gonzalez. And the reason for that?
    Mr. Browning. Well, I haven't polled all my local elections 
supervisors, but the ones that I have talked to, and I talk to 
my supervisors of elections on a regular basis, they have 
sensed or expressed to me a sense of frustration with the EAC. 
Certainly we are appreciative of funding that the Federal 
Government, through the EAC, has provided for the modernization 
of voter registration and voting systems, but, you know, when 
you have election administration being done or--I won't even 
say--to a degree micromanaged, at least they are attempting to 
micromanage elections through the EAC, it doesn't work. The 
folks that best know how to administer elections are those 
locally, and I think that they see the EAC as an intrusion.
    Mr. Gonzalez. I am going to yield back if you'll give me 
one second, sir. First I want to apologize to our witnesses and 
my colleagues. I am supposed to be chairing a meeting right 
now, and so I am 20 minutes late, and this group gets very 
restless, so I will apologize. But thank you for your 
testimony.
    I think if we are realistic about what we are trying to do 
and to assist you, it is not necessary to do away. All we have 
to do is improve on what has proved beneficial. That is why I 
asked that question. I don't believe that all the election 
officials agree with your assessment, because, to be honest 
with you, we have someone present today that believes it has 
been beneficial. That is a local election official.
    Mr. Chairman, thank you for your indulgence.
    Mr. Harper. Thank you very much, Mr. Gonzalez.
    I now recognize the gentleman from Indiana for 5 minutes.
    Mr. Rokita. Thank you, Mr. Chairman. I would just say for 
the record and to the witnesses, having supervised elections, 
having run elections in the State of Indiana for 8 years, I 
don't know--this is to Mr. Gonzalez--I don't know a group of 
election officials that agree on everything 100 percent of the 
time. In that sense they are no more than a simple microcosm of 
this great country.
    I also would say the fact that bureaucrats might write in 
and tell us that they are overworked and understaffed has 
little weight with me, and that comes from a guy who used to 
run a bureaucracy. I used to run it on 1987 dollars unadjusted 
for inflation. We can all do more work around here, Mr. 
Chairman.
    To my friend Mr. Fortier--I guess we haven't met, so I 
shouldn't say ``friend'' so flippantly. You were called in, I 
would suggest, as a friendly witness. And I appreciate your 
concentration on research. Are you aware that the EAC contracts 
out most of its research, or at least does, yes or no?
    Mr. Fortier. Yes.
    Mr. Rokita. Okay. Are you aware that it contracts it out to 
organizations that aren't necessarily unbiased, or do you not 
have an opinion? Yes or no, no opinion.
    Mr. Fortier. There is a lot of research, I suppose----
    Mr. Rokita. Are you aware that I was part of a group as 
secretary of state that worked with contractors to the EAC on 
issues of voter intimidation and photo ID, yes or no?
    Mr. Fortier. Yes.
    Mr. Rokita. You are aware that I was part of that.
    Are you aware that that contractor was discredited and had 
to leave its liberal, biased university, a specific law school, 
because of an inspector general's report that came out 
indicating that the EAC had contracted biased people, biased 
organizations, and gave biased results back?
    Mr. Fortier. I am not aware of that.
    Mr. Rokita. Okay. Now that you are aware of that, would you 
rely on the EAC for its research, yes or no?
    Mr. Fortier. I have a hard time answering yes or no, but 
what I would say is this: That, yes, the EAC itself I don't 
expect to do its research in house. I--the core functions----
    Mr. Rokita. Do you have a problem----
    Mr. Fortier. Data collection, I think, is the most 
important feature.
    Mr. Rokita. Do you have a problem with professional 
government organizations like the GAO performing the election 
research?
    Mr. Fortier. Not necessarily, but I think it would be 
potentially too diffuse. It wouldn't have the focus of an 
organization that had a core competency----
    Mr. Rokita. Do you think----
    Mr. Fortier [continuing]. Having five or six, seven 
people----
    Mr. Rokita. Core competency. But you just understood that 
they contract out their research.
    Mr. Fortier. They contract out data collection, but having 
people in house who can analyze----
    Mr. Rokita. No, no, no. I was part of a group that didn't 
just contract out data collection, they made conclusions.
    To my secretary of state friends, starting with Mr. 
Hosemann, is there anything in the Mississippi Constitution 
that allows the Federal Government to be involved in the 
election process?
    Mr. Hosemann. No.
    Mr. Rokita. Okay. Do you see anything in the U.S. 
Constitution that allows for the Election Assistance Commission 
to do what it does?
    Mr. Hosemann. No, I do not. And I would tell you that I 
think clearly we believe that the collection of data is 
important, and we believe that the collection of data by 
impartial individuals is important to the States. We share that 
data. Florida, Mississippi, Indiana, all of us share that data.
    Also the indication that there would not be a spotlight on 
the election system with the removal of the EAC is not shared 
by me. We get the spotlight thrown on the secretary of state's 
office every time there is an election, and plenty of reporters 
and people looking at it.
    So it is not about the data collection. I think it can be 
better done in another location. It is not about the fact that 
this will somehow go away and people won't look at the election 
system anymore. I can assure you they will look at it in 
Mississippi. I can't testify for the other States, but I feel 
they will as well.
    Mr. Rokita. Thank you, Mr. Hosemann.
    And, Secretary Browning, thank you for being here as well. 
Do you know Supervisor Gill of Citrus County, Florida?
    Mr. Browning. Yes, very well.
    Mr. Rokita. She testified here last year before I got to 
Congress and said some nice things about the EAC at a hearing 
that was a look back at the 2010 election. And this comes from 
my friend Congressman Nugent, who is of that county. He had a 
conversation with her today, and I want to get this on the 
record and have you respond. This is her quote from, I believe, 
this morning: The more I learned about it, being the EAC, the 
more I was for eliminating the organization.
    So she has changed her view in an opposite direction from 
how Ms. LaVine's testimony recorded her view. Any reaction to 
that?
    Mr. Browning. Yes. As a matter of fact, I had a 
conversation with Supervisor Gill just last evening, and she 
had indicated to me that the more she found out, the more she 
realized that the EAC was more of a burden than it was a help. 
She expressed that to me last night.
    Mr. Rokita. Secretaries, I thank all the witnesses. Sorry I 
didn't get to each of you. And I yield back.
    Mr. Harper. Thank you very much, and I appreciate you being 
here. What we want is we want to have efficient and fair 
elections in this country where everyone who is legally able to 
vote can vote, and those that shouldn't don't. And I know that 
is the goal of everybody in this room, but when we look at this 
and the function and the history of EAC, this is why we are 
here today.
    We are not attacking HAVA. In fact, if we are saying that 
we support that bill, well, within that bill was a provision 
that the EAC was only authorized through 2005. I think when you 
look at the history of your organization, of NASS, and what 
they have done, you have recognized that and looked at that. 
And so when we see the inability to do the job, that is an 
issue.
    One last thing that I will note that Mr. Gonzalez brought 
up of essential functions. Right now the EAC has, I believe, 50 
employees. Only six of those would be handling what we would 
deem to be essential. So there is a significant cost savings of 
what we would be talking about in this reassignment.
    But we do look forward to hearing from you. If you have 
other thoughts, suggestions, you know, we definitely want to 
hear from you. We appreciate each of you, your service and 
dedication to the process.
    With that, this hearing is adjourned.
    [Whereupon, at 11:56 a.m., the subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T7345A.052
    
    [GRAPHIC] [TIFF OMITTED] T7345A.053
    
    [GRAPHIC] [TIFF OMITTED] T7345A.054
    
    [GRAPHIC] [TIFF OMITTED] T7345A.055
    
    [GRAPHIC] [TIFF OMITTED] T7345A.056
    
    [GRAPHIC] [TIFF OMITTED] T7345A.057
    
    [GRAPHIC] [TIFF OMITTED] T7345A.058
    
    [GRAPHIC] [TIFF OMITTED] T7345A.059
    
    [GRAPHIC] [TIFF OMITTED] T7345A.060
    
    [GRAPHIC] [TIFF OMITTED] T7345A.061
    
    [GRAPHIC] [TIFF OMITTED] T7345A.062
    
    [GRAPHIC] [TIFF OMITTED] T7345A.063
    
    [GRAPHIC] [TIFF OMITTED] T7345A.064
    
    [GRAPHIC] [TIFF OMITTED] T7345A.065
    
    [GRAPHIC] [TIFF OMITTED] T7345A.066
    
    [GRAPHIC] [TIFF OMITTED] T7345A.067
    
    [GRAPHIC] [TIFF OMITTED] T7345A.068
    
    [GRAPHIC] [TIFF OMITTED] T7345A.069
    
    [GRAPHIC] [TIFF OMITTED] T7345A.070
    
    [GRAPHIC] [TIFF OMITTED] T7345A.071
    
    [GRAPHIC] [TIFF OMITTED] T7345A.072
    
    [GRAPHIC] [TIFF OMITTED] T7345A.073
    
    [GRAPHIC] [TIFF OMITTED] T7345A.074
    
    [GRAPHIC] [TIFF OMITTED] T7345A.075
    
    [GRAPHIC] [TIFF OMITTED] T7345A.076
    
    [GRAPHIC] [TIFF OMITTED] T7345A.077
    
    [GRAPHIC] [TIFF OMITTED] T7345A.078
    
    Mr. Fortier did no submit responses to the Committee prior 
to the printing of this transcript.

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
